<html>
<title> - EXAMINING THE MANAGEMENT OF RED SNAPPER FISHING IN THE GULF OF MEXICO</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


 EXAMINING THE MANAGEMENT OF RED SNAPPER FISHING IN THE GULF OF MEXICO

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                 THE INTERIOR, ENERGY, AND ENVIRONMENT

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 2, 2017

                               __________

                           Serial No. 115-32

                               __________

Printed for the use of the Committee on Oversight and Government Reform

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


         Available via the World Wide Web: http://www.fdsys.gov
                       http://oversight.house.gov
                       
                       
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
27-115 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a5c2d5cae5c6d0d6d1cdc0c9d58bc6cac88b">[email&#160;protected]</a>                        
                       
                       
                       
                       
                       
                       
                       
              Committee on Oversight and Government Reform

                     Jason Chaffetz, Utah, Chairman
John J. Duncan, Jr., Tennessee       Elijah E. Cummings, Maryland, 
Darrell E. Issa, California              Ranking Minority Member
Jim Jordan, Ohio                     Carolyn B. Maloney, New York
Mark Sanford, South Carolina         Eleanor Holmes Norton, District of 
Justin Amash, Michigan                   Columbia
Paul A. Gosar, Arizona               Wm. Lacy Clay, Missouri
Scott DesJarlais, Tennessee          Stephen F. Lynch, Massachusetts
Trey Gowdy, South Carolina           Jim Cooper, Tennessee
Blake Farenthold, Texas              Gerald E. Connolly, Virginia
Virginia Foxx, North Carolina        Robin L. Kelly, Illinois
Thomas Massie, Kentucky              Brenda L. Lawrence, Michigan
Mark Meadows, North Carolina         Bonnie Watson Coleman, New Jersey
Ron DeSantis, Florida                Stacey E. Plaskett, Virgin Islands
Dennis A. Ross, Florida              Val Butler Demings, Florida
Mark Walker, North Carolina          Raja Krishnamoorthi, Illinois
Rod Blum, Iowa                       Jamie Raskin, Maryland
Jody B. Hice, Georgia                Peter Welch, Vermont
Steve Russell, Oklahoma              Matthew Cartwright, Pennsylvania
Glenn Grothman, Wisconsin            Mark DeSaulnier, California
Will Hurd, Texas                     John Sarbanes, Maryland
Gary J. Palmer, Alabama
James Comer, Kentucky
Paul Mitchell, Michigan
                   Jonathan Skladany, Staff Director
                  Rebecca Edgar, Deputy Staff Director
                    William McKenna General Counsel
                          Drew Feeley, Counsel
                         Kiley Bidelman, Clerk
                 David Rapallo, Minority Staff Director
                                
                                ------                                

         Subcommittee on the Interior, Energy, and Environment

                   Blake Farenthold, Texas, Chairman
Paul A. Gosar, Arizona, Vice Chair   Stacey E. Plaskett, Virgin Islands
Dennis Ross, Florida                 Jamie Raskin, Maryland
Gary J. Palmer, Alabama              (Vacancy)
James Comer, Kentucky                (Vacancy)
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 2, 2017......................................     1

                               WITNESSES

Mr. Earl Comstock, Director, Office of Policy and Strategic 
  Planning, U.S. Department of Commerce
    Oral Statement...............................................     5
    Written Statement............................................     7
Mr. Jamie M. Miller, Executive Director, Mississippi Department 
  of Marine Resources, State of Mississippi
    Oral Statement...............................................    14
    Written Statement............................................    16
Mr. Christopher Brown, President, Seafood Harvesters of America
    Oral Statement...............................................    18
    Written Statement............................................    20
Mr. Mark Ray, Vice Chairman, Coastal Conservation Association
    Oral Statement...............................................    23
    Written Statement............................................    25

                                APPENDIX

Opening Statement of Chairman Blake Farenthold...................    50
Follow-up from Mr. Mark Ray to Representative Byrne..............    53
Questions for the Record submitted by Rep. Graves to Mr. Earl 
  Comstock.......................................................    55

 
 EXAMINING THE MANAGEMENT OF RED SNAPPER FISHING IN THE GULF OF MEXICO

                              ----------                              


                          Tuesday, May 2, 2017

                  House of Representatives,
         Subcommittee on the Interior, Energy, and 
                                        Environment
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 2:04 p.m., in 
Room 2154, Rayburn House Office Building, Hon. Blake Farenthold 
[chairman of the subcommittee] presiding.
    Present: Representatives Farenthold, Palmer, Plaskett, and 
Raskin.
    Also Present: Representatives Scott, Palazzo, Weber, 
Graves, and Byrne.
    Mr. Farenthold. The Subcommittee on the Interior, Energy, 
and Environment of the Committee of Oversight and Government 
Reform will now come to order.
    Without objection, the chair is authorized to declare a 
recess at any time, which should be happening shortly after 
they call votes on the floor.
    We'll start off with our opening statements, and I'll go 
first.
    So I'd like to wish everyone a good afternoon. Today, the 
Subcommittee on the Interior, Energy, and the Environment will 
examine the management of red snapper in the Gulf of Mexico. 
Red snapper is an essential, yet controversial, resource for 
the Gulf States. Today, we explore some of the ongoing issues 
related to red snapper fishing, as well as potential solutions 
to these problems. We'll also look at the science and data 
collection associated with managing snapper and take a look at 
how the National Oceanic and Atmospheric Administration, or 
NOAA, is doing.
    The most significant regulation of red snapper fishing 
first occurred in the 1980s and 1990s in an effort to conserve 
a dwindling snapper population. While a significant recovery is 
well underway, the conservation efforts created snapper quotas 
in ratios that must be shared among the red snapper fishing 
sectors.
    Like many Americans, I'm a supporter of conserving our 
environment and natural resources. There's no doubt we have a 
responsibility to combat overfishing of red snapper and of 
other species. However, we need to ask if the population data 
that's being used to determine these fishing quotas is accurate 
and if we're using sound science. Unfortunately, the answer 
here may be no. If it were yes, there would not be such large 
discrepancies between the Federal Government and the Gulf 
States over catch shares, season lengths, and snapper ratios. 
The quality of data from collection to interpretation drives 
red snapper regulation and industry along the Gulf Coast. 
Relying on inconsistent data for red snapper population 
continues to drive potential restrictions on commercial, 
charter, and recreational fishing in the Gulf of Mexico.
    The Federal Government has continuously struggled with 
managing red snapper in a fair and consistent manner. In the 
last few years, NOAA has published rules regarding catch 
estimates that have seemingly see-sawed between favoring 
commercial anglers' interest rights and recreational anglers' 
interests. The Federal Government should not be in the business 
of picking winners and losers. Unfortunately, though, this is 
what appears to be happening with red snapper fishing. An 
example from 2007, when the Gulf of Mexico Fishery Management 
Council implemented an individual fishing quota or catch share 
program for commercial anglers, this program was designed to 
provide a steady year-round supply of red snapper that was 
within the Federal quota. Unfortunately, less than a hundred 
commercial anglers were allocated shares. This has resulted in 
a reduction of roughly 800 commercial anglers over the last 
decade, leaving us only about 400 today. Of those 400, about 
50--and I'm using quotes here--``own'' approximately 80 percent 
of the commercial fishery.
    We also face extremely short recreational seasons that can 
all but deny folks access to snapper fishing. Should the 
weather turn bad or other circumstances arise, the short season 
would make it impossible for some folks to take advantage and 
enjoy this resource. And I've got to tell you, some of my 
fondest childhood memories involve fishing and making sure--and 
I think we need to be making sure that future generations can 
enjoy this as well.
    Despite these problems, I'm hopeful we can find solutions 
that are both fair and beneficial for all parties involved in 
red snapper fishing, and I look forward to hearing suggestions 
from our panel today.
    And at this point, we'll let Ms. Plaskett do her opening 
statement. They have called votes. So, as soon as she finishes, 
we'll take a recess and vote and come back and introduce the 
panel and do questioning.
    I now recognize the ranking member.
    Ms. Plaskett. Thank you, Mr. Chairman.
    Good afternoon to you all.
    And I guess that means I've got to speak really fast now.
    Mr. Farenthold. Blessed are the brief.
    Ms. Plaskett. Mr. Chairman, thank you--and thank our 
witnesses--for holding this important hearing.
    I greatly appreciate the opportunity to discuss an issue 
that does not get the attention it deserves. Federal law has 
helped save the red snapper. Before 2006, this species, prized 
by recreational and commercial fishermen alike, faced 
overfishing, a steep decline in population, and the possibility 
of extinction. The cooperation between fishermen and regulatory 
agencies within the framework of the Magnuson-Stevens Fishery 
Conservation and Management Act has largely brought back the 
red snapper. It is due to this success that we can hold a 
hearing today.
    Representing a jurisdiction located in the Caribbean, the 
fishing industry is an important part of our economy, both in 
the commercial as well as recreational sphere.
    However, we do not have the same issues as the Gulf of 
Mexico because we operate on an annual catch limit as opposed 
to a quota system, which is set by the National Marine 
Fisheries for economic exclusive zones. We do not have a formal 
recreational fishing program, and recreational fishermen are 
not required to be licensed. However, one of our main issues 
pertains to sports fishing, mainly sports fishing for marlins 
in the British Virgin Islands where the British Virgin Islands' 
government has increased the licensing fee so drastically that 
it is having a negative impact on our once-thriving sports 
fishing industry.
    Perhaps, Mr. Chairman, we can work together on this issue.
    I'm really excited about this hearing because the 
protection of fish and natural environment and the balance 
needed for the maintaining of those resources and the needs of 
recreational and especially commercial fishing should be 
addressed.
    I look forward to hearing from some of those voices today 
that are here, and I view this hearing as the beginning of a 
discussion on how we allow greater access to the red snapper 
fishery while ensuring that this important and still-overfished 
stock continues to rebuild.
    Thank you.
    Mr. Farenthold. Thank you.
    And it is our intention to reconvene shortly after this 
vote series concludes. So I would ask the members to return 
promptly after the vote series. We'll go on--after that, we'll 
introduce our witnesses, hear their testimony, and go with 
questions.
    I apologize for the delay, but the House voting schedule is 
about as unpredictable as the weather.
    So, with that, the committee stands in recess, subject to 
the call of the chair.
    [Recess.]
    Mr. Farenthold. The subcommittee will reconvene. We 
appreciate y'all waiting as we had the opportunity to go vote.
    So we'll get underway with introducing our panel and 
questioning.
    The chair notes the presence of our colleagues Congressman 
Steven Palazzo of Mississippi, Congressman Austin Scott of 
Georgia. We've been informed also that Congressmen Randy Weber 
of Texas and Bradley Byrne of Alabama and Garret Graves of 
Louisiana plan on attending today. I ask unanimous consent that 
they be able to participate in today's hearing.
    Without objection, so ordered.
    And I appreciate you guys' interest in the topic and 
looking forward to a great hearing.
    We have gone ahead--Ms. Plaskett and I have both made our 
opening statements. So a couple administrative matters: I'm 
going to be holding the record open for 5 legislative days for 
any members who'd like to submit a written statement.
    Now we'll recognize our panel of witnesses.
    I'm pleased to welcome Mr. Earl Comstock, Director of the 
Office of Policy and Strategic Planning, from the U.S. 
Department of Commerce.
    I'd now like to recognize Congressman Palazzo to introduce 
our next witness. I believe he's a constituent of his.
    Mr. Palazzo. That it is, Mr. Chairman. And thank you.
    And, members of the subcommittee, thank you for allowing me 
to introduce my constituent, my friend, my former chief of 
staff, Jaime Miller. As you know, Mr. Miller has been serving 
as the executive director of the Mississippi Department of 
Marine Resources since 2013.
    A native of Gulfport, Mississippi, Jaime has spent his 
entire career serving the Gulf Coast community. Jaime has an 
environmental biology degree with a minor in chemistry from the 
University of Southern Mississippi and began his career as a 
coastal ecologist at DMR, the department he now leads. So he 
has a strong scientific education in marine resources.
    What makes Jaime's experience truly unique is that, in 
between his stints at DMR, Jaime has held positions in Federal, 
State, and local governments. He has served as a chief of 
staff, a city manager, and a policy adviser to the former 
Mississippi Governor following Hurricane Katrina. His 
scientific education coupled with his practical experience in 
coastal resources management policy at every governmental level 
makes him uniquely suited to testify before you today. He is 
great at his job, but, more importantly, I consider him a great 
friend.
    Jaime, thank you for being here today.
    And, again, Mr. Chairman and subcommittee members, I 
appreciate the opportunity to introduce my constituent.
    Mr. Farenthold. Thank you very much, Congressman Palazzo.
    I'd also like to welcome Mr. Christopher Brown. He's the 
president of the Seafood Harvesters of America.
    And I have the opportunity to introduce my constituent, Mr. 
Mark Ray. I am not going to go into nearly as much detail as 
Mr. Palazzo did. Suffice it to say, he's testifying today both 
as an interested angler and as vice chairman of the Coastal 
Conservation Association.
    So welcome to you all. Pursuant to committee rules, all 
witnesses will be sworn in before they testify.
    Would you please rise and raise your right hand?
    Do you solemnly swear or affirm that the testimony you are 
about to give will be the truth, the whole truth, and nothing 
but the truth, so help you God?
    Great. Let the record reflect all witnesses answered in the 
affirmative.
    And y'all may be seated.
    In order to allow for discussion, we'd ask that you limit 
your oral presentation to 5 minutes.
    You'll find you have a timer in front of you. The green 
light means go. The yellow light, much like in traffic, means 
hurry up, and the red light means you need to stop.
    We have your full written testimony for the record.
    So we'll get started with Mr. Comstock. You're recognized, 
sir.

                       WITNESS STATEMENTS

                   STATEMENT OF EARL COMSTOCK

    Mr. Comstock. Thank you, Mr. Chairman, and members of the 
committee. It's an honor to be here today representing 
Secretary Ross and the Department of Commerce and, 
particularly, the National Oceanic and Atmospheric 
Administration and the National Marine Fisheries Service.
    This hearing here--let me preface this by starting out with 
an announcement that we came out with today. I think everybody 
knows, but we're talking about Gulf red snapper. And on that, 
we announced today that the fishing regulations for the 2017 
season would be 3 days for private anglers, 49 days for the 
charter boats and head boats, with a two fish bag limit and 
greater than 16 inches.
    It really, I think, troubles everyone that we're having to 
say it's a 3-day season for recreational fishermen out in the 
Gulf. And I think it brings us right to the heart of what we're 
hoping that the Department of Commerce, working with you folks, 
can find a solution to.
    I'm here today--just by way of background, let me just say 
that I spent 10 years working on the other side of the Hill for 
Senator Ted Stevens, one of the people whom the Magnuson-
Stevens Act is named after, and spent a considerable amount of 
time working on fishery management issues there. So I am 
familiar with the challenges that come with this. And while I'm 
not necessarily familiar with the unique circumstances of the 
Gulf, I do know the range of authorities that are available 
through Congress.
    And one of the points I'd like to make today and stress in 
my oral testimony here is that really this fishery illustrates 
exactly the limits of what you can do under the council system 
when you're dealing with a multistate fishery. And in other 
circumstances--and I just commend this to the Congress--we have 
actually enacted separate legislation. For example, the 
Atlantic Coastal Fisheries Cooperative Management Act--there's 
also one on the West Coast for Dungeness crab--where Congress 
has taken the reins and said, ``We're going to sort this out,'' 
because the challenge that we see here today, and what's 
represented by this 3-day fishery, is that the focus of the 
Magnuson-Stevens Fishery Conservation and Management Act is 
exactly that: it's maintaining, in the long term, our fisheries 
so that we can maintain our coastal communities and maintain 
these opportunities for Americans to go out in the easy and 
fish.
    So, if we're going to do that, at the end of the day, you 
do have to put a priority on conserving the stocks. That is 
what the act is designed to do. There's been specific 
legislation in many cases dealing with fishery management 
solutions in individual areas, including off the State of 
Alaska, as well as there's--section 407 in the Magnuson Act 
today dealing with Gulf red snapper.
    So this is not a new issue. It's not a unique issue. But 
the challenge is, right now, the Federal Government, under its 
management rules, essentially has to act as the safety 
backstop. So our fishery, the fishery that the Federal 
Government regulates for the recreational angler in the Gulf, 
is basically what's left over once the States have finished 
with their fishery management. And I know all the States have 
very competent fishery managers. They're working very hard on 
these things. But they have to--I'm sorry. This is supposed to 
be turned off. But, at any rate, they have to basically choose 
their own regulatory path, and then we have to look at what 
they've done, take our best guess, and say, ``Here's what we 
think is left over.''
    So, to conserve the stock and ensure that there's fish 
going forward in the future, we pick up the residual. And I'm 
here today to listen to your suggestions and offer whatever 
advice we can. But the reality is this is a problem that 
ultimately comes back to Congress, probably, to find a solution 
to how we're going to allocate and manage amongst these five 
States that share the Gulf resource.
    Thank you very much, and I'll be happy to answer any 
questions.
    [Prepared statement of Mr. Comstock follows:]
    
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Farenthold. Thank you very much. And well under time.
    Mr. Miller, you're recognized

                  STATEMENT OF JAMIE M. MILLER

    Mr. Miller. Good afternoon. Thank you, Chairman Farenthold, 
members of the subcommittee.
    Thank you, Congressman Palazzo, for that generous 
introduction.
    I'm Jaime Miller, director at the Mississippi Department of 
Marine Resources. My agency's mission is to enhance, protect, 
and conserve the marine interests of Mississippi. One of the 
ways we do this is by providing a fisheries regulatory 
environment that is understandable and enforceable while 
allowing sustainable access to these resources.
    Today, I'm here to speak to you about the red snapper 
fishery in the Gulf of Mexico, specifically off the coast of 
Mississippi. Mississippi, like the other Gulf States, has a 
long history of the red snapper fishery. Our State has 
representation of all user groups. The commercial group 
operates through the individual fisheries quota, or IFQ, 
system. The recreational group, through the recent passage of 
Amendment 40, is separated into two sections, identified as the 
private sector and the charter-for-hire sector.
    Currently, red snapper is managed as a single stock under a 
Gulf-wide quota system. The Gulf-wide quota is divided between 
two recreational sectors: the recreational sector with 51 
percent of the quota and the commercial sector with 49 percent 
of the quota. There are issues within each group, but the 
largest management issue with red snapper presently is within 
the recreational private sector.
    Over the past decade, the recreational private sector has 
seen annual seasons reduced from 194 days in 2007 to just 3 
days, and now it's just a day, 2017. These conditions created 
by the current management system have led to derby seasons, 
which have frustrated private anglers and forced them to fish 
offshore in less favorable and sometimes dangerous conditions. 
These derby seasons also have decreased ability of NOAA's data 
collection tool, the Marine Recreational Information Program, 
or MRIP, to accurately determine harvest levels.
    There are also serious questions about the timing and 
accuracy of stock assessment updates. As a result, our agency, 
as well as the public, has lost confidence in the data being 
used to determine season lengths. In response to the data 
collection problem, Mississippi created its own survey system 
called Tails and Scales, a custom landings program for red 
snapper administered by the MDMR. This program has been paid 
for without Federal funds and is unique from other programs in 
that the angler must acquire a trip number before leaving a 
dock and be in possession of the number while on the water. By 
making this requirement mandatory, Mississippi fishery 
management data is reported very quickly as well as being hyper 
accurate. These data can now be used in determining catch 
targets for the recreational sector in a matter of days rather 
than 6 to 10 months, according to the current system.
    The other Gulf States have developed similar landing 
programs to provide custom area fishery dependent data which 
can be utilized in Gulf-wide or regionwide assessments to 
ensure that overfishing is not occurring. Many of these State-
based landings programs, including ours, are currently being 
certified or under consideration for certification with NOAA. 
Additionally, I and other members of the Gulf of Mexico Fishery 
Management Council have requested NOAA to provide more timely 
and accurate updates to stock assessments for red snapper. 
Unfortunately, this issue remains unchanged and will continue 
to leave a gap in data that will keep us in a pattern of derby 
seasons.
    We remain at a crucial point in the management of this 
species, and I would like to emphasize that the Magnuson-
Stevens Fishery Conservation and Management Act does a good job 
overall of keeping America's fisheries sustainable. However, 
when a species has been placed in a rebuilding plan, it remains 
trapped there until a substantial effort is made to collect 
timely and accurate data to show it has recovered. The States 
have been forced to provide the collection of these data to 
NOAA at their own expense. I believe NOAA must find ways to 
focus additional resources on solving issues that Gulf States 
have identified as a high priority.
    The State of Mississippi remains committed to Federal 
partnerships that work to ensure sustainable harvests 
benefiting the public resource.
    Thank you, again, for the opportunity to participate in 
today's hearing.
    The management of red snapper is important to the citizens 
of Mississippi and Mississippi's coastal economy, and I'm glad 
to answer any questions the subcommittee may have.
    Thank you.
    [Prepared statement of Mr. Miller follows:]
    
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Farenthold. Thank you, Mr. Miller.
    Mr. Brown, your 5 minutes is rolling.

                 STATEMENT OF CHRISTOPHER BROWN

    Mr. Brown. Thank you, Mr. Chairman, members of the 
committee, for the opportunity to come down from Rhode Island 
and talk to you about the management of red snapper in the Gulf 
of Mexico.
    I'm the president of the Seafood Harvesters of America. In 
that role, I speak almost daily with members from Alaska to the 
Gulf of Mexico to the Gulf of Maine. We share a commitment to 
manage our Nation's fisheries sustainably.
    I recognize that red snapper is a hot-button issue for many 
of you folks here. And you may wonder: What right do I have to 
weigh in on it? I have a long relationship with the industry, 
the resource, and the council process. And I assure you that 
this fishery is not unique and shares common features with 
fisheries in other regions.
    Fifty years ago, I was just a boy fishing at my 
grandfather's side on a small boat in Block Island Sound. 
Fishing in pristine waters was something that I will never 
forget.
    Forty years ago, I was 19 years old, confident that the 
wealth before us was inexhaustible. Sadly, and looking back, 
predictably now, time has revealed otherwise.
    Thirty years ago, I had two mouths to feed and a new baby 
on the way, and I had no visible means to make ends meet. We 
had crashed our stocks. We had failed to understand the fragile 
nature of the relationship that exists between the harvester 
and the ocean.
    I am the voice of the fishermen from around the Nation that 
have traveled this very same path. We have learned many, many a 
hard lesson. And in this journey lies the credibility of my 
testimony.
    Ten years ago, we had the beginning of a recovery in New 
England. The management of the day favored derbies and did 
little to end the discards associated with those derbies. In 
that mold, we failed to find either profit or stock health.
    Through a reauthorized Magnuson-Stevens Act and our 
transition away from what's currently the very same management 
strategies that are used in the recreational fishery in the 
Gulf of Mexico, we began the long road back to rebuilding.
    What failed in New England failed the recreational 
fishermen of the Gulf of Mexico, and it equally failed the 
commercial fishermen years earlier. Oftentimes, derbies do not 
work. They have failed this region since their introduction, 
and I would question the value of a manager that would suggest 
more of the same in light of what I hear is a 3-day season in 
Federal waters this year.
    There are problems in the snapper management in the Gulf of 
Mexico that I see. Specifically, general uncertainty of catch 
rates and totals. Fisheries need to be governed by science, not 
politics. This is true in all regions, not just the Gulf.
    Any expansion of fisheries management authority to the 
surrounding States will work only if it is subject to the 
standards aspired to by the Magnuson-Stevens Act. Without 
Magnuson-Stevens, State managers are poorly supported to make 
tough resource decisions. They are forced to hold back and 
regulate the very people that empowered them and gave them 
office. That is a job no man should face.
    Management that values popularity serves only itself and is 
of no value to the fish, the commercial sector, or the 
recreational sector. Decisions should always be steeped in 
sound science. Fisheries that do not feed well into the 
scientific community should be structurally reconsidered as to 
accommodate their effective management.
    On the good side of the ledger, you should be grateful 
that, in the Gulf of Mexico, you have an environment that is 
still receptive to growing fish. We are not that lucky in New 
England. The fishery has been largely rebuilt on the backs of 
the catch share program that is in place. Federal charter boats 
now use electronic monitoring to report their activity daily. 
And in fisheries management, if you can't measure it, you can't 
manage it.
    Fishing is not a right; it is a privilege. With privilege 
comes obligation. We view the Magnuson-Stevens Act as our 
contract with America to do no harm. We think it is a fantastic 
document.
    In the Seafood Harvesters of America, our mission is to 
facilitate and develop sustainable fisheries. We are the 
fishermen who have emerged out of the ashes of overfishing. We 
have seen a new path to prosperity and environmental health. 
The health of our community is specifically related to the 
health of our stocks. And accountability is an element common 
to all great fisheries and will lead to success over time.
    I would love to handle any questions you'd like to give me 
later.
    Thank you very much.
    [Prepared statement of Mr. Brown follows:]
    
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Farenthold. Thank you, very much, Mr. Brown.
    And, Mr. Ray, you're recognized for 5 minutes.

                     STATEMENT OF MARK RAY

    Mr. Ray. Thank you, Chairman Farenthold and members of this 
committee. My name is Mark Ray. I'm a long-time member and 
volunteer of the Coastal Conservation Association, and I 
currently serve as chairman of the CCA, Texas chapter.
    CCA has more than 120,000 members in State chapters on all 
three coasts. And we appreciate the opportunity to appear 
before this committee today and provide our perspective on the 
ongoing challenges of red snapper management in the Gulf of 
Mexico.
    As anglers, we are very proud of the role we have played 
over the years to improve and expand the red snapper population 
in the Gulf of Mexico. We have been engaged in various 
management aspects of this fishery for more than two decades, 
and we are proud to say that our efforts helped lay the 
groundwork to achieve what many marine scientists believe is 
the healthiest red snapper population ever in the Gulf of 
Mexico. Our successful efforts to minimize the devastating 
impacts of juvenile red snapper mortality in the shrimping 
industry in the early 2000's allowed for a recovery of this 
stock that has surprised scientists, managers, and anglers 
alike.
    I have the honor of being here today, but you could ask any 
fisherman who ventures offshore to sit in this chair, and they 
would tell you the same story: it is hard to get a bait past a 
red snapper. Anglers are encountering these deep-growing fish 
in areas where they have never been seen before, and the fish 
they catch are bigger, on average, than at any time under 
management.
    By any measure, the red snapper fishery in the Gulf of 
Mexico should be held up as a shining example of proper 
management and good conservation. But as this hearing 
demonstrates, that is not the case. We aren't here today to 
highlight the conservation success story. Unfortunately, we are 
here because red snapper is known throughout the Nation as a 
man-made fishery management disaster.
    In spite of the health of the stock, current projections 
indicate that the Federal season for the recreational sector 
will probably be 2 to 4 days this year. And, in fact, today, it 
was made to be 3 days. After decades under intense Federal 
management, this is the best that anglers can hope for, a 3-day 
season in Federal waters? I don't think anyone would declare 
the current situation a success.
    The reason for how we got here is convoluted and intricate, 
and ultimately they remind of the story of the blind men asked 
to describe an elephant. Each answer will reflect an 
individual's own version of reality from their perspective.
    Perhaps a message that will convey the most clarity to this 
committee in the time that I have is that State fishery 
management agencies of every single Gulf State have found 
reason to go out of compliance with Federal red snapper 
regulation. That is an extraordinary development.
    I'm certainly not a fisheries manager, but the five Gulf 
State agencies certainly have plenty of professional wildlife 
managers, and they see sufficient flaws with Federal management 
of this fishery that they have elected to chart their own 
course to improve access to a robust resource.
    The process of addressing these ongoing challenges begins 
with acknowledging that the current one-size-fits-all solution 
is not working. Habitat, effort, accessibility, weather, and 
many other factors impact how a fishery should be managed, and 
they all vary wildly, from the Florida Keys to Brownsville, 
Texas.
    At the same time, red snapper is a species with high site 
fidelity. They don't migrate. They stay where they were for 
their whole lives.
    The potential is there to allow each State to manage its 
fishery on a much more fine-tuned scale, according to local 
tradition and practice to meet specific need and challenges. 
Give the States greater responsibility to manage the fishery 
off its shores in a way that best serves the health of the 
fishery and the ability of the public to access it.
    We believe that all stakeholders have critical roles to 
play in the management of our Federal marine resources. But 
anglers cannot fulfill their role if they're administratively 
locked out of a fishery. We are willing to do our part in a 
system that recognizes the inherent fundamental differences 
between recreational angling and industrial harvest. All we ask 
is for a system that allows all stakeholders the best 
opportunity to enjoy and use these resources. I'm here today to 
ask this committee to give us this chance.
    Thank you for your time, and I'll be happy to answer any 
questions from the committee.
    [Prepared statement of Mr. Ray follows:]
    
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Farenthold. Thank you, Mr. Ray.
    I'm going to go ahead and let Mr. Palmer go ahead with his 
questioning first, and I'll come back at the end of the 
committee members. And then, once we've done the committee 
members, we'll go to those that were unanimously consented in 
to participate.
    So, Mr. Palmer, you're recognized for 5 minutes.
    Mr. Palmer. Thank you, Mr. Chairman.
    Mr. Comstock, what kind of data does NOAA use to determine 
red snapper populations in the Gulf of Mexico?
    Mr. Comstock. Thank you, Congressman Palmer. We use 
scientific studies. They do stock assessments.
    And, again, I'd be happy to provide to you greater detail 
on that. But, in general, they do, over a period of several 
years, they'll do stock assessments. They're reviewed by the 
scientific and statistical committees of each council. They go 
through a peer-review process, and the council looks at that 
data and then assesses it. And the State fishery managers are 
all typically involved in that process as well.
    Mr. Palmer. Well, there is apparently criticism from the 
Gulf States that the National Marine Fisheries Services uses 
outdated and one-dimensional science to assess particularly the 
red snapper population and that there's a lack of coordination. 
How do you respond to that?
    Mr. Comstock. Well, I'd be happy to look into it further.
    I do know this, and that is, that, again, my background is 
more strongly in the Alaska science side. But we can get you as 
much detail as you like and arrange a briefing for your staff.
    I think the challenge on all fishery management, this is a 
mixed-stock fishery. So these fish don't sync as a single 
population. As a result--and also we have limited resources and 
funds. So there's a cycle for reviewing these things, and 
there's always--I think my experience has been that there's 
always challenges to assessing the fish stocks, and there's 
always debate about the accuracy of it. That's why we have a 
process. And, again, what I'd like to point back to is this is 
part of the reason the fishery management council process is 
there. It's to establish a system where you have the 
participation of the State management agencies. You have a 
process with scientists looking at this to try to get to the 
best result. No system is perfect, and there's always room for 
improvement. And that's certainly something that the Department 
will be looking strongly at and trying to improve upon over the 
coming year.
    Mr. Palmer. Mr. Miller, does the State of Mississippi 
collect scientific data on fisheries, particularly red snapper?
    Mr. Miller. We do. We do that through what's referred to as 
the Marine Recreational Information Program, which is 
consistent with all the Gulf States.
    Mr. Palmer. How is that different from how NOAA does their 
assessment?
    Mr. Miller. It is the information that NOAA uses to make 
their assessments.
    Mr. Palmer. Mr. Ray indicated--or it may have been you--
that every State has a conservation officer. You have people 
who have expertise in this. And, again, going back to the 
criticism that there's not a lot of coordination, particularly 
in the context--in response to Mr. Comstock's point that 
there's limited resources for this, doesn't it make sense that 
NOAA would be relying on the States who have specific expertise 
in regard to their fisheries?
    Mr. Miller. That is accurate. To give more detailed answer 
on MRIP, the program used, MRIP is a successful way----
    Mr. Palmer. Could you give the name of----
    Mr. Miller. Marine Recreational Information Program.
    And for many State species and other species, MRIP is 
appropriate. Where MRIP fails and cannot provide good 
information is when you have what we have with red snapper 
where you're only opening a season for a few days.
    We're collecting surveys year-round and getting no 
responses because the fishery is closed, you know, 360 days out 
of the year. And so the data that is collected, although we're 
collecting it and providing it to NOAA, it's just--it's 
incomplete.
    Mr. Palmer. So that we're clear on this, you're saying that 
the States collect this data, but, in your view, NOAA is not 
utilizing that data in their decisionmaking process?
    Mr. Miller. NOAA provides funds to the State, through this 
program, which pays for staffing for us to go do surveys, be at 
the docks, collect information about what is being caught, 
other telephone interviews. The problem itself is that, with a 
fishery that's opening every day, you can be at the dock every 
day and get good, consistent information about what's being 
landed. If you're out there 360 days and nothing is being 
landed because there's no season and all your information is 
relying on just a few days of catch, it's incomplete. And it 
wouldn't matter who is dealing with the data; it would always 
be incomplete.
    Mr. Palmer. Well, I just want to make sure that we make 
this point. And if I'm wrong, you can correct me. But I think 
the inference here, and what you're really saying is, is that 
the data that the States collect is more accurate than what 
NOAA is using to base its decisions on. So my question here--
and, Mr. Ray, you can weigh in on this--if we utilize the data 
collected by the States, do you think the policy decisions 
would be different?
    Mr. Miller. Well, what has--as a result of this imperfect 
system, the States have defaulted to create their own system.
    In Mississippi, we've got something called Tails and 
Scales, where we focus only on the people that are targeting 
red snapper. They've got to acquire a landings permit. And so 
we, in a very targeted way, know how many people are fishing, 
what they're catching, how much they've caught, where they 
caught it at. And that's just information that MRIP cannot 
collect. And so Louisiana, Alabama have each gone in that 
direction to collect better information.
    Mr. Palmer. The reason I bring that up, Mr. Chairman, is 
Mr. Ray made the statement that every Gulf State, I believe, is 
out of compliance with the NOAA regulations. And I don't think 
you do that just to spite NOAA. I think you do it because you 
think your information, your research, your data, and your 
policies are more consistent with the actual situation in the 
fisheries. Is that fair?
    Mr. Miller. I think that's fair.
    Mississippi went--issued a noncompliant season for the 
first time in 2013 after the season lengths began to shorten 
extremely. And I think each of the State managers are convinced 
that, you know, we are doing no harm, that we are aware and are 
doing what's best for the resource or at least doing no harm to 
the resource.
    Mr. Palmer. I appreciate your indulgence, Mr. Chairman. I 
yield back.
    Mr. Farenthold. Thank you very much.
    I'll now recognize Ms. Plaskett.
    Ms. Plaskett. Thank you, Mr. Chairman.
    Good afternoon, gentlemen.
    One of the things I wanted to talk about is I found very 
interesting, Mr. Comstock, when you talked about the cycle of 
review that you do. What is the rotation of that review? How is 
that determined?
    Mr. Comstock. That's determined in conjunction with the 
council. So they go through a process, sit down with the 
regional fishery management center. We have regional fishery 
science centers.
    Ms. Plaskett. Uh-huh.
    Mr. Comstock. And they work through a cycle of looking at 
the stocks, trying to determine which ones--partly on the 
biology of the fish, partly on the needs of the fishery 
managers to assess how quickly they're going to be able to do 
this, and then it's a function of our resources.
    And I did, if you don't mind, want to point out one thing 
as we talk about the stock assessments. Some of the data that 
was being discussed with MRIP, that is catch, how much is being 
caught. There's also just the basic biology and assessment of 
the fishery stocks. How big is the spawning biomass? So the 
stock fishery management is not just about, how much did you 
catch? You also have to figure outs how much is there in the 
first place.
    Ms. Plaskett. Okay. But when you talked about how often you 
review them, and that that's tied to your budget, you said, how 
often you'll go back and review. Is that--did you mention 
something about that?
    Mr. Comstock. That's--well, that's correct. I mean, it 
costs money to go out, and as the gentleman just pointed out, 
we do give money to the States as well to support some of their 
programs. So you're going out and doing trawl surveys and 
taking sampling to determine how these fish stocks are doing. 
So it does cost money.
    Ms. Plaskett. Okay. And in the proposed budget that has 
come out from the President, would that--I know there were 
reductions that were going in coastal areas of NOAA. What is 
the reduction amount, and would that affect something such as 
this?
    Mr. Comstock. Well, the fiscal year 2018 budgets haven't 
been submitted yet. So I'm not really in a position to----
    Ms. Plaskett. I'm talking about the President submitted a 
budget to Congress, a skinny budget for the next fiscal year.
    Mr. Comstock. Right. But as I understand it, a deal was 
reached, and they've settled on the NOAA figures----
    Ms. Plaskett. Right.
    Mr. Comstock. --and I don't think those will radically 
affect the stock assessments, no.
    Ms. Plaskett. Okay. When you did talk about the State 
management systems and how those are effective, currently the 
red snapper fishery, the Gulf of Mexico Fishery Management 
Council is responsible for managing red snapper in the Gulf. 
And I understand that the council is made up of 17 voting 
members, 16 of which were selected by Governors of the five 
Gulf States, one of which is a Federal representative. The 
council also includes a mix of commercial, charter boat, head 
boat, and private angler fishermen.
    Mr. Comstock, is that correct, the composition of that 
council?
    Mr. Comstock. Yes. In general, each one of the States has a 
State fishery manager who sits on the board. There is a Federal 
representative, a single one. And then the remaining ones are 
allocated--each of the States has two, except, I believe, the 
State of Florida has three representatives.
    Ms. Plaskett. And but----
    Mr. Comstock. --and they're distributed amongst the various 
fishery representatives.
    Ms. Plaskett. Sure. But the voting members are how many?
    Mr. Comstock. The voting members are 11, I think.
    Correct me if I'm wrong on that.
    Ms. Plaskett. Okay. Is that correct, Mr. Miller? Do you 
know?
    Mr. Miller. I think it is 17. I think each State has three; 
Florida has four.
    Ms. Plaskett. Okay.
    Mr. Comstock. When you add in the Federal--the fishery 
manager, plus the others. That gives you three.
    Ms. Plaskett. So, Mr. Brown, with 16 of the 17 voting 
members selected by State Governors, would you say that the 
Gulf of Mexico Fishery Management Council had strong State 
representatives?
    Mr. Brown. Yes, I would. I would say that the States are 
represented very well.
    Ms. Plaskett. And there has been some effort to remove the 
management of the snapper fisheries from this council. Do you 
agree with this or not agree with it? What are the benefits or, 
you know, the cost to doing something using regional councils 
to manage Federal fisheries?
    Mr. Brown. As we speak today, the snapper in the Gulf of 
Mexico belong to the citizens of the United States of America. 
They are not that which belongs to an individual or a State. 
And in that, we need to have a say. The Magnuson Act is the 
contract with America that the people that use the fish will 
not damage the resource. It is a brilliant document. It is the 
finest fisheries management document in the world. We need to 
keep going through the Magnuson Act.
    The shortcomings and the outcomes that have been delivered 
to the recreational fishery are not the problem of the Magnuson 
Act. They are the problems of the management decisions that 
have been made on behalf of the recreational fishermen.
    Ms. Plaskett. The management decisions made by whom?
    Mr. Brown. By the council and the State managers who select 
the days.
    Ms. Plaskett. And you think that--why do you think they do 
that? Why do you think that that is the problem?
    Mr. Brown. Well, it's not anything specifically deliberate. 
You know, the management strategies that they use are called 
input control management.
    The strategies that are used by the commercial side are 
considered output control.
    Ms. Plaskett. Uh-huh.
    Mr. Brown. Where they measure each fish. They weigh each 
fish. There's a specific output.
    The input control measures are notoriously famous for 
delivering a wide range of results. You could have a season 
where the weather was incredibly good, and people fished a lot, 
and as a result of that, they caught a lot of fish. Or you 
could have a season where the days were very, very poor, and as 
a result, you didn't catch your limit.
    So it's the method that they have adopted that has 
disserved them.
    Ms. Plaskett. When you say ``disserved them''--excuse me, 
Mr. Chair--do you mean the commercial fishermen or the 
recreational fishermen?
    Mr. Brown. No. The methodology associated with the 
commercial fishery has been reliable. The input control 
measures that have been adopted by the various States have 
produced results that, from time to time, do not result in 
desirable outcomes.
    Ms. Plaskett. Okay. Thank you very much.
    Mr. Farenthold. Thank you, Ms. Plaskett.
    I'll now recognize myself for 5 minutes.
    Mr. Comstock, just today, NOAA announced that the next 
season for snapper is going to be 3 days. What happens if 
there's a big old honker hurricane in the Gulf on those 3 days?
    Mr. Comstock. Thank you, Mr. Chairman.
    NOAA retains the flexibilities or--or NMFS does, actually--
to readjust those openings if we encounter such a situation. 
And, in fact, that's occurred in the past. Where there's been 
really bad weather, they have been----
    Mr. Farenthold. Right. But we could end up with a 
situation, say, oh, there's really bad weather over on the 
Florida coast but not on the Texas coast.
    So I guess my question is--and I'll start with you--is 
there a better way to do this than just picking an arbitrary 
limit of days where we could manage it better than just a 
microseason?
    Mr. Comstock. Well, I think, you highlight--and to Mr. 
Brown's point, the challenge when you're doing recreational 
fishing is you want to preserve the opportunity for people to 
come and fish. A lot of recreational fishermen don't make their 
plans that far in advance. Some live on the coast. Some travel 
to the coast. So the challenge for fishery managers is, if 
you're going to set up a system that allows people to sort of 
show up and fish when they will, then you have to do what's 
called the output management--I mean, the input, where you 
basically set up a bag limit, you set up something--and that 
does vary widely. If you have a really nice weekend and lots of 
people show up and lots of people are successful fishing--and 
that's how--you know, we're sort of victims of our own success 
here. It's easier to catch Gulf red snapper now than it ever 
was. And people are catching bigger Gulf red snapper. And the 
effect that then has is your poundage goes up. You have to 
estimate that more is being taken, and the season gets shorter.
    Mr. Farenthold. So isn't the logical reason that it's 
easier than ever to catch snapper is your program is 
successful, and perhaps the timeline for recovery is longer 
than it should be or the data that you are using or the 
methodology you are using to collect that data may not be 
giving an accurate picture of the current supply?
    Mr. Comstock. Those are all perfectly legitimate points. 
And that's exactly what the council reviews are designed to do. 
They do adjust their management measures and try to get it. I 
think the challenge we face--and you can look across the five 
Gulf States. They all have different seasons. They all have 
different regulations. So, as I said, we are the default. We're 
the end point. At the end of the day, NMFS looks at: What did 
each one of the States decide to do; how are they managing 
their fishery; estimates what's going to be caught from that; 
and then, once you subtract all those out from the available 
catch, under the statute, that's what we're allowed.
    Mr. Farenthold. But that kind of goes against some of the 
other testimony we've heard today, that red snapper are 
nonmigratory. So, if they tend to stay within the same area in 
which they're born, doesn't this methodology say, all right, we 
may be overharvesting certain areas and underharvesting other 
areas?
    Mr. Comstock. That's something that the scientists could 
certainly look at. Right now, it is a Gulf-wide assessment. And 
so, if the fishery managers were to decide, based on the 
science, to change that to individualized populations, that 
might be a solution. I can tell you this. They thought that 
halibut, up in Alaska, was very similar, that it stayed very 
resident and didn't move. They then later changed their 
assessment, and it's now an Alaska-wide fishery. So it does--
scientists do make mistakes. They do make changes. But that's, 
again, exactly what the----
    Mr. Farenthold. All right. I'm going to give Mr. Ray an 
opportunity. How can we make this better while still preserving 
the fisheries?
    Mr. Ray. Well, a number of reasons come to mind.
    Texas Parks and Wildlife, and I suspect every State, 
manages our public trust resources to include consistent and 
reasonable access to the public.
    This notion that the current fisheries management has that 
you have to count every fish is not practiced in any of the 
other State managements of any wildlife. And there's a trust 
between anglers and the States. Throughout history, NOAA has 
treated angling as an afterthought. And NOAA may dispute that, 
but I can assure you that is how recreational anglers feel.
    Finally, the proof is in the water fisheries managed solely 
by Texas Parks and Wildlife. Against a drastically increasing 
population in Texas, our marine wildlife resources in Texas are 
thriving: shellfish, crabs, speckled trout, redfish, 
commercially harvested species, like flounder and croaker, are 
all doing fabulous because State management has the fleet-
footedness to make decisions to manage those resources as they 
need to be managed and when they need to be managed.
    Mr. Farenthold. All right. Thank you very much.
    I see my time has expired.
    I will go to Mr. Raskin now for his 5 minutes of questions.
    Mr. Raskin. Mr. Chairman, thank you very much.
    Thank you all for your testimony. I found it very 
interesting.
    It looks like we've got the classic tragedy of the commons 
problem, where you've got a common-shared resource that, if 
everybody were left to their own individual devices and 
interests, then we would rapidly be depleted. So it needs to be 
regulated so the resource continues to be there for everybody. 
And I take it there has been success since this 2007 rebuilding 
plan was put into place.
    Is that right, Mr. Comstock, that the red snapper 
population has rebounded? Is that right?
    Mr. Comstock. Yes. It's certainly come back.
    Mr. Raskin. To what would you attribute the success of the 
2007 plan?
    Mr. Comstock. Again, to the rebuilding management that was 
done under the Magnuson-Stevens----
    Mr. Raskin. Which involves what specifically?
    Mr. Comstock. It involves reducing the catch until the 
stock recovers.
    Mr. Raskin. Okay. So that's the main ingredient in the 
plan: it's just reducing the catch and allowing the population 
to grow.
    So all of this requires expert scientific management, 
presumably, monitoring and assessment of what's going on. Are 
members of the panel standing by the work of the scientists at 
NOAA in terms of analyzing the dynamics of the red snapper 
population?
    Mr. Comstock. Well, again, I think yes. We certainly 
support the work that the NOAA scientists have done. And I 
think where you're hearing the disagreement here is that 
there's the opportunity for other solutions. And, again, I'll 
just repeat what I said at the beginning. The challenge for us 
is we're under the Magnuson-Stevens Fishery Conservation 
Management Act. Congress has within its power the ability to 
change that and create a different dynamic for the Gulf States. 
That's what's been done, for example, in the Atlantic States 
Marine Fisheries Commission. So there are other solutions. We 
have to work within the structure that we've been given. So we 
can have disagreements all day. The States do an excellent job 
of managing. And we work with them all the time.
    We think the NOAA scientists do a good job. And there can 
be disputes over some of the stock assessments and other 
methodologies, but the general goal is to work together to 
provide the best fishery management possible. We'd be the first 
ones to say that there are other solutions out there, and we 
know several of you have bills to do this. But that is exactly 
the challenge. We have individual States that have their right 
to manage, and we have NOAA. And we're trying to work together 
as best we can. But there certainly could be alternative 
solutions.
    Mr. Raskin. Is there--there's some suggestion in the 
various remarks of the witnesses that there's some 
disgruntlement about the fairness of the allocation of the fish 
catch between the commercial and recreational fishermen and 
fisherwomen. Is there something within your particular 
statutory authority and purview now that could be done to shift 
the allocation somewhat from the commercial to the recreational 
without lifting the overall limit and cap?
    Mr. Comstock. Well, the Gulf Council--and Mr. Miller may be 
able to speak to this--if he was on it directly--the Gulf 
Council recently did recommend such a reallocation. 
Unfortunately, it was struck down by a court. So there was an 
attempt to shift about 2 percent of the catch, and that was not 
done. I don't know if the Gulf Council plans to revisit that, 
but they certainly have that within their authority.
    Mr. Raskin. Mr. Miller, did you want to--was that struck 
down as outside of the--your authority under the statute?
    Mr. Miller. I think ultimately what was decided in the 
court was NOAA did not have the ability or could not prove to 
the courts that they were accurately predicting or assessing 
what the recreational sector was catching. And so, until NOAA 
could better and more completely determine what the landings 
for the recreational sector was, then they were unable to 
change the allocation.
    Mr. Raskin. So, as a matter of administrative law, they 
found there wasn't a sufficient basis for the council's action. 
Is that right?
    Mr. Miller. Well, as with most of these topics, they're 
complicated. But the commercial guys have a strict regimen. 
They have to call in, call out. We're at the dock meeting them. 
We know exactly how much pounds of fish they're going to land.
    The recreational sector, because I believe they're trapped 
in a system that cannot allow NOAA to accurately assess what 
their landings are, they--the Gulf Council did want to change 
the allocation and voted to do so. But there was no way for the 
council to be certain that they could, I guess, with 
confidence, tell them what percentage they were catching. So 
until they could do that, the court said you can't change it.
    Mr. Raskin. I see.
    Finally--Mr. Chairman, if I could--they're not able to make 
a determination just based on past catches, what's taken place 
in prior years?
    Mr. Miller. Well, it gets back to the data, the incomplete 
data question. And I--NOAA has capable scientists. It's not 
their scientists. Any scientist given incomplete information, 
their confidence in what questions they're answering just is 
not as sure as it should be.
    So what we try to do in identifying what the data gaps 
were, if you want to call them that, the States have taken it 
upon themselves to provide better information. But we're not to 
the point now where NOAA and the council is recognizing that 
better information yet. And as soon as they do, we think it's 
going to shed light on a lot of what has caused a lot of 
frustration. That's one side of it.
    The other side is stock assessments, which Mr. Comstock 
spoke to, and about biomass and where that biomass is in the 
Gulf and how do you do that timely and quickly.
    Mr. Raskin. Thank you. I yield back.
    Mr. Farenthold. Thank you very much.
    We'll now recognize the gentleman from Georgia.
    Mr. Scott. Thank you, Mr. Chairman.
    I appreciate the opportunity to be here and shed some light 
on this. And I fished that Gulf since I was about 5 years old, 
sat on the Steinhatchee Bridge with my dad up to and until the 
point I learned how to fish with some commercial fishermen by 
the last name Raffield, Captain Bill, good man. Might not have 
caught as many fish as Buddy Guindon in the Gulf of Mexico. But 
I think one of the problems we got here is this isn't about 
fish; this is about money when you get right down to it.
    And so the issue with the lawsuit that was brought--one of 
the advisory members of NOAA brought the lawsuit. And I'd like 
to read something from the lawsuit since you mentioned it as a 
common asset, and you said the fish are the people's fish.
    One of the men that filed the suit, from Texas, the suit--
in the suit, it says: The current management system for hired 
captains, such as the fishermen named in this, cannot permit 
their customers to fish for red snapper even in State waters 
when the Federal recreational fisheries close. Therefore, they 
are uniquely punished as the Federal season shortens.
    The EDF is paying for this lawsuit, by the way. Here's from 
one of them's website. Let's see. Where is it?
    Year-round red snapper fishing experiences.
    It's about money, not about fish.
    This is what--this is 1 day. My yearly allocation, any 
American's yearly allocation, that complies with the rules the 
way they're designed to be complied with, is six.
    But when you sit on the board and you create a regulatory 
mechanism under which nobody can comply with it and you're 
making as much money as is being made, that's the problem here. 
And so a public asset has been used to create private wealth.
    Would you please play the video for me?
    This guy is one of the best fishermen in the Gulf. He 
honestly is.
    [Video shown.]
    Mr. Scott. Let's see how they do it.
    [Video continues.]
    Mr. Scott. Twenty to 30 hooks at a time.
    [Video continues.]
    Mr. Scott. Two bandits per man.
    Sixty hooks a person.
    [Video continues.]
    Mr. Scott. That's my yearly allocation.
    [Video continues.]
    Mr. Scott. Eighteen fish, four pounds a piece.
    [Video continues.]
    Mr. Scott. That's mine, my dad's, my brother's, my 
sister's, my wife's.
    [Video continues.]
    Mr. Scott. Yep. He gets to go back the next day and catch 
another 15,000 pounds.
    This is about money. There's black snapper in the Gulf. 
There's white snapper in the Gulf. There's all kinds of 
different snapper in the Gulf. But the red snapper is worth 
more per pound than any other fish. But the red snapper, to the 
American taxpayer, the recreational angler, is worth more per 
snapper caught to the American taxpayer.
    So let's--I would suggest it's worth the $20 to buy the 
``Big Fish Texas.''
    Mr. Brown, I'm glad y'all are in favor of protecting the 
species. I hope you'll be supportive of additional national 
monuments in the Gulf of Mexico since we have such a shortage 
of red snapper that the American family can only fish 3 days. 
Look forward to working to get that done.
    And let me sum it up like this. I bought the whole video 
series so I could find out just how much money there was in it.
    Mr. Scott. Now, these people never paid for their 
allotment. I want you to understand that. It's a public asset. 
They gave it to themselves.
    The increased allocation, in and of itself--in their video, 
the commercial fisherman explains how his fishing company has 
been giving a 30-percent increase in its quota. One company got 
a 30-percent increase in its quota. Now, they're big; they get 
20 percent of the fish in the Gulf of Mexico, generating an 
additional $50,000 a week in revenue.
    That allocation, nobody had the opportunity to bid on that 
allocation. If you are the current person that has it and they 
increase it, you get the increase, at the exclusion of every 
other American.
    It is a public asset, Mr. Brown; you are right. And it has 
created tremendous sums of wealth for a select few, the way 
this has been done. If it were oil or timber or any other 
asset, it would be auctioned off, and we would use that money 
to build additional habitat and resources, restore the damage 
that the commercial fishing industry has done to reefs, and 
things along those lines.
    So, to his credit, he's a great fisherman. He's a great 
fisherman. And he's made a lot of money with it.
    So I want to thank you for coming here today, and I'm going 
to give you a couple of suggestions.
    The quota system, the individual quota system--the derby 
system did not work, and the IFUs will work for the commercial 
sector. I 100 percent believe it's better than the derby 
system. But that's a public fish, and if it's creating private 
wealth, then, by law, that access should be auctioned, not 
given away.
    Two is acknowledge the differences in the depths of the 
Gulf.
    Mr. Chairman, I have many--Mr. Comstock, we're going to get 
to know each other well. I would challenge you to go to the 
Gulf of Mexico and not catch a red snapper. And I would ask you 
one quick question: What is the difference, if the fish is dead 
when I bring it to the surface, if I put it in the cooler or if 
I throw it back overboard and feed a porpoise or a shark? 
Because the fish is dead when it comes to the surface.
    Mr. Comstock. You highlight one of the challenges of 
fishery management, and that is that they discourage people 
from catching something or not catching something when you 
can't control that. So it is a challenge, and I understand your 
point exactly.
    Mr. Scott. Sir, respectfully, our problem is conflicts of 
interest and money.
    Mr. Farenthold. The gentleman's time has expired.
    We'll now recognize the gentleman from Texas, Mr. Weber.
    Mr. Weber. Thank you, Mr. Chairman.
    Mr. Miller, you're from Mississippi?
    Mr. Miller. Yes, sir.
    Mr. Weber. Okay. And give me your title again, what you do.
    Mr. Miller. I'm the executive director for the Mississippi 
Department of Marine Resources. And we manage all of the marine 
interests in State waters for Mississippi.
    Mr. Weber. Okay. And how long have you been doing that?
    Mr. Miller. For about 4 years.
    Mr. Weber. About 4 years? Okay. You have a method of 
tracking the snapper that has been caught in your waters. Is 
that right?
    Mr. Miller. We recently, 2 years ago, created an 
application on your smartphone called Tails n' Scales, which 
generates a landings permit, yes.
    Mr. Weber. Okay. Are you the first State to do that?
    Mr. Miller. We're the first State to do this specific 
application. Alabama has a similar, or, in concept, same, 
landings program. And Louisiana has also another program.
    Mr. Weber. Okay. Is that something similar to tags, or no?
    Mr. Miller. Tags are a little different, although the 
concept could be thought of the same. Tags would limit the 
amount of people that could obviously fish, because you'd have 
a number of tags that would be issued this year. We don't have 
a--the fishery is open to everyone, but you do have to register 
before you go fish and create that landings permit number. So 
we keep the fishery open in that way.
    Mr. Weber. Okay. And so there's no charge for creating the 
trip number, as you called it.
    Mr. Miller. No charge.
    Mr. Weber. Okay.
    As I understand it--this has been kind of a new area for me 
I've gotten into the last 2 or 3 years, because I'm not a 
fisherman by history. But, as I understand it, the Federal 
licensing system was put together in 1998. Is that you all's 
understanding? Or thereabouts.
    Anybody? Any historians? Nobody remembers?
    Mr. Comstock, how long have you been in your job?
    Mr. Comstock. Well, I've been in this job since January, 
but I've been working on fisheries issues since 1985.
    Mr. Weber. 1985, okay.
    Anybody know when the Federal licenses were created for the 
red snapper commercial sector?
    Mr. Comstock. Well, in 1996 was really when there was a 
section added to the Magnuson-Stevens Act specifically to 
address Gulf red snapper. And that's what led to the division 
between the commercial and recreational sector. So sometime in 
the mid to late 1990s, I would hazard, is probably the right 
date.
    Mr. Weber. At that point, when those licensing--that 
procedure was created, how did someone get a Federal license?
    Mr. Comstock. I think the complication that's a challenge 
here is for commercial fishing it's regulated differently than 
recreational fishing.
    Mr. Weber. Well, that's what I'm talking about, the 
commercial fishing license.
    Mr. Comstock. Well, for----
    Mr. Weber. Not the charter boat captains.
    Mr. Comstock. --commercial fishing licenses--commercial 
fishing has been regulated, frankly, since the original Fishery 
Conservation and Management Act came in, in many cases, so 
that's back in 1976. But in terms of the individual fishing 
quota system that's being referred to here and for the 
commercials--this is where each individual fisherman got an 
allocation--that varies by fishery as to when those were set 
up. I don't know the exact date for red snapper, but we 
certainly could----
    Mr. Weber. Is that something you can get to my office?
    Mr. Comstock. Absolutely.
    Mr. Weber. Okay.
    We have a--``mandatory'' is probably not the right word. 
Based on science, we have 3 days' fishing season for rec guys 
this season. We would all laugh and say that's ridiculous, my 
good friend here, Mr. Scott, has pointed out, because when you 
go pull red snapper up, they're dead for all practical purposes 
anyway. So you're actually hurting, I think, the ability to 
help keep the fishery. Because if you could take those fish 
with you, you're through. And perhaps smarter people than me 
figure out that there's actually less red snapper taken like 
that than those that are thrown back in. That's just the result 
of me being out there a couple of times, making that 
observation.
    Is there anything, in your opinion--I want to go to all 
four of you. If we just doubled the recreational guys' season 
today from 3 to 6, would that have a huge impact, Mr. Comstock? 
A huge negative impact?
    Mr. Comstock. Well, again, the Federal allocation accounts 
for a relatively small portion of this. That's part of the 
reason it's down to 3 days. So some of the States--I think it 
may be Texas that's, in fact, open year-round. So that's why 
it's a little hard to say double. If you doubled the Federal 
piece, you would go over by some amount over the bycatch--I 
mean, over the total allowable catch. But I'd have to get back 
to you with the exact numbers.
    Mr. Weber. Okay.
    I mean, just 3 days, Mr. Miller. Any objection to doubling 
it, adding 3 days to the season?
    Mr. Miller. No, we would not object to that.
    Mr. Weber. Mr. Brown?
    Mr. Brown. By some small degree, you would delay the 
recovery of snapper. That's all there is to it.
    Mr. Weber. Mr. Ray?
    So you think it'd have a minimal impact, but----
    Mr. Brown. I don't think it would be a huge impact.
    Mr. Weber. Okay. So that's not accounting for all those 
that are thrown back dead because people catch them anyway. 
There's no way to really account for that, is there? And so 
that really doesn't matter unless you happen to be the fish.
    Mr. Brown. You know, in other fisheries, the managers 
account for seasons that are very limiting, in consideration of 
noncompliance. With striped bass, when they ratchet down the 
season, they assume there's a higher rate of noncompliance. 
That drives the numbers up.
    Mr. Weber. Okay. I'm running out of time.
    Thank you for your indulgence, Mr. Chairman.
    Mr. Ray, 3 more days?
    Mr. Ray. Recreational fishermen would welcome any more 
days. We have a year-round harvest in the State waters of 
Texas. Parks and Wildlife manages that. It's a robust fishery. 
We've seen no indication of any decline there. And the real 
territory of that fish is outside of the State waters.
    Mr. Weber. Okay.
    Thank you, Mr. Chairman. I yield back.
    Mr. Farenthold. Thank you very much.
    And we'll now recognize Mr. Byrne.
    Mr. Byrne. Thank you, gentlemen. I'm Bradley Byrne. I 
represent the Gulf Coast of Alabama, which got about the worst 
news we could've gotten today. A 3-day season is a slap in the 
face to thousands of my constituents, who have grown up and 
their families have spent their whole lives fishing for snapper 
in the Gulf of Mexico. They're out there a lot, and they tell 
me--and occasionally I get to get out, not much in my new job--
you can't put a hook in the water without getting a snapper.
    And we have had representatives of the National Marine 
Fisheries Service before the Natural Resources Committee who 
have admitted under oath that they're not sampling for snapper 
on reefs. That's crazy. And that's why we've got the crazy 
statistics we've got.
    Mr. Miller, you were gracious enough to provide to my 
office a slide that shows what you've done with your Tails n' 
Scales program and the actual data you've collected regarding 
the catch off Mississippi, in those waters, and what the 
Federal Government shows. The Federal Government shows you all 
caught no snapper. Wow. That's pretty remarkable. On the other 
hand, you show that you all caught, I think it's 40,000 pounds.
    Now, come on. How could the Federal Government say you 
caught zero? We know your folks were out there fishing. And the 
fish aren't just all going magically to Alabama, by the way, to 
be caught. How does this happen?
    Mr. Miller. Thank you, Representative Byrne.
    You're right, we did provide you information. And Alabama 
had a similar--or illustration of a similar data comparison. 
And Mississippi, in 2015, given the data provided to NOAA, 
which I think everybody agrees is incomplete, it was determined 
that Mississippi had caught zero red snapper. By our own Tails 
n' Scales app, we had accurately, we believe accurately, 
estimated around 40,000 pounds. In Alabama, the opposite 
happened. NOAA had determined that Alabama had landed, I think, 
over a million pounds, and, in reality, their own application 
or program had said they landed closer to 600,000 pounds.
    So I think there's consensus among States and even folks at 
NOAA that the data being used to determine landings and catch 
effort can be much better. The States have taken it upon 
themselves to develop their own apps, their own landings data 
programs, and the sooner NOAA will recognize that and use that 
as part of their system of season links, we think the better.
    Mr. Byrne. I have introduced legislation in the past that 
would remove stock assessment and data collection 
responsibilities away from NOAA completely and give it to the 
Gulf States Marine Fishery Commission.
    And I've got to thank the chairman of our House Natural 
Resources Committee, Rob Bishop, for his support in making sure 
that language is already in this year's version of Magnuson-
Stevens Reauthorization Act introduced by Representative Don 
Young. So we're trying to do something here. But we've got to 
get it through two houses of Congress, not just the House. 
We've got to get it through the Senate.
    Mr. Ray, as you heard, I'm a recreational fisherman. I grew 
up my whole life, never, ever had an issue with this, frankly, 
until the last few years. We like to go out and just have fun. 
Sometimes we catch fish; sometimes we don't. You know, there's 
a difference between going fishing and catching fish sometimes.
    Obviously, this is a very important issue. It's for people 
that just want to do recreational angling. But I'm having a 
hard time convincing some people that there's also an economic 
impact here. Those of us that go fishing, we buy fuel, we buy 
bait, we pay for our licenses. Some of us travel, so we have to 
have condos or hotel rooms that we stay in.
    Do you have any information for us on what the economic 
impact is from recreational fishermen just in this market?
    Mr. Ray. I don't have with me, off the tip of my tongue, 
any empirical data like that. We can certainly provide it to 
your office. I'm a volunteer and not a----
    Mr. Byrne. Right.
    Mr. Ray. --statistician or an economist.
    Mr. Byrne. But you'd agree it'd be considerable.
    Mr. Ray. It's very--well, I mean, it's the same thing--
somebody in Ohio can go buy red snapper for $12, $15, $18 a 
pound. If you want to catch a red snapper, you've got a $60,000 
to $100,000 boat and gasoline and bait and fuel and time and 
travel and all of those things to access a public resource that 
we're just locked out of, for all practical purposes.
    Mr. Byrne. Mr. Chairman, I appreciate being included. I can 
tell you that my constituents are outraged. And something is 
going to have to be done; this cannot continue. And I just 
appreciate your giving me some time to be here today.
    Thank you, gentlemen.
    Mr. Farenthold. I appreciate it.
    And I think we've all got a few more questions. If the 
panel will indulge us, we'll go through a quick second round. I 
am going to hold people to the 5-minute limit here so we stay 
within reason.
    And we've heard--and I'm going to recognize myself first. 
Then we'll go to Ms. Plaskett and then Mr. Raskin. The 
committee rules say we do committee members before we do folks 
we've UC'd in. So it'll be me, the two minority members, and 
then we'll come back to Mr. Scott and Mr. Weber, assuming Mr. 
Graves doesn't return.
    So we've heard a lot of testimony here about the problems 
with the system. I think it'd be very hard to disagree with the 
fact that a 3-day recreational season for snapper is ludicrous. 
So what are the solutions? To me, it appears we need to, A, 
look at the science, because I don't think we have good 
science; and I think we need to look at the law.
    And I'm going to go down and ask each member to take 
roughly a minute and a half and tell me what they would do to 
fix this, whether it's legislatively or in procedures that are 
done at the States or within our agencies.
    Mr. Comstock?
    Mr. Comstock. I thank you, Mr. Chairman.
    We'll follow up with Congressman Byrne, but just for the 
record, according to information that NMFS has, there's no 
question that anglers contribute quite a bit. They were 
estimated to contribute $75 million to the gross domestic 
product. They generated about $130 million in business sales. 
And they spent about $54 million, supporting 984 jobs. So it's 
a significant industry. There's no question about that.
    In terms of solutions, we would absolutely welcome working 
with this committee and look forward to working with members of 
this committee and other Members of Congress on finding 
solutions.
    I think the proposals that you've heard and the efforts the 
States have made is something that--I can certainly say the new 
administration will be working much more closely with the 
States, trying to integrate that information----
    Mr. Farenthold. That's particularly the data from the apps 
and----
    Mr. Comstock. Absolutely. There's no reason not to use new 
technology to do everything we can. Because, obviously, the 
more precise the catch data is, the better the fishery 
management will be.
    In terms of the stock assessments, that's, again, something 
we'll be looking at, we'll be working with folks. I hear loud 
and clear the concern.
    Mr. Farenthold. Is that something that our universities 
might be able to help with as well?
    Mr. Comstock. They already are. In fact, there's funding, I 
believe, in the current fiscal year 2017 bill that will be 
going forward to do some additional work through that. And we 
do work closely with the universities.
    And last but not least, as I said, there's a number of 
legislative proposals. The administration has not taken a 
position on any of them yet, but we are more than happy to sit 
down and walk through with people how they might be 
implemented. The challenge here is that you have five States 
and a Federal entity that all have to work together.
    Mr. Farenthold. Mr. Miller?
    Mr. Miller. I think recognizing the State systems, what 
they've come up with to collect better information, which I 
think NOAA also agrees is better information. The sooner they 
can work to allow that to inform the decisions, I think that's 
positive.
    And on the stock assessment side, you know, the Southeast 
Science Center, which is responsible for stock assessments in 
the Gulf, just looking at the numbers from this science center 
compared to others in the country--and this may be an unfair 
statement, but I don't know how else to put it--that they just 
need to generate more. And I know it's a funding and a resource 
issue for them, but NOAA needs to do a better job of giving 
them what they need to answer these questions faster. The 
States, just like any other government, has to do more with 
less. And this is a top priority.
    Mr. Farenthold. All right.
    Mr. Brown?
    Mr. Brown. Thank you.
    You know, one of the things that I haven't heard mentioned 
today was the States' ability to generate biological 
equivalency fisheries that would allow them greater access to 
Federal waters in exchange for fewer days in State waters. If 
the larger fish that are offshore are more desirable, then 
there is a way for that to be worked out. The scientists and 
the managers can do that.
    To the point that the fisheries need to be monitored 
better, it is always to the advantage of the fishermen to make 
sure that scientists are completely aware of what they are 
catching, to the greatest extent possible. NOAA scientists tell 
me all the time: If you want more fish, show me more fish.
    You know, the snapper issue is complicated by the fact that 
they are such a long-lived species. And, oftentimes, it is very 
easy for fishermen to assume simply a lot of fish means a 
recovered stock. A recovered stock in a fish that lives as long 
as a snapper will require that you have significant numbers of 
fish that are at the big end of their scale.
    Mr. Farenthold. What is the lifespan of a snapper?
    Mr. Brown. I believe that they live--judging by the 
management plan, they must live 30 or 40 years.
    Mr. Farenthold. All right.
    And let's give Mr. Ray a chance before I run out of time.
    Mr. Ray. Yeah, I'm going to go back to this notion that the 
States can just do a better job. Texas Parks and Wildlife and 
every State has been able to manage their resources better. 
Throughout its history, NOAA has treated angling as an 
afterthought, and the States listen to recreational anglers and 
commercial fishermen alike. And the States use university-based 
and department-based science to make those decisions, and they 
make them in a fleet-footed, immediate manner.
    Mr. Farenthold. Thank you very much.
    Ms. Plaskett, do you have some more questions?
    Mr. Raskin?
    Mr. Raskin. Forgive me, because I'm such a novice to the 
issue, and so I'm still trying to figure the whole thing out 
and the different levels of authority. But the 3-day rule has 
been imposed by whom?
    Mr. Comstock. That applies in Federal waters, so it would 
be, in general, beyond 9 miles in the Gulf of Alaska right now. 
And so it's imposed by the National Marine Fisheries Service.
    Mr. Raskin. The Marine Fisheries Service, okay. And it 
doesn't apply directly to the States? The States, do they 
follow that rule, or do they do their own thing?
    Mr. Comstock. No, the States set their own regulations and 
days. So it varies from--as you heard, the gentleman from 
Texas, Mr. Ray, said, they're open 365 days a year. Other 
States have shorter limits, I think, down to about 60 days.
    Mr. Farenthold. It's geographic.
    Mr. Raskin. Gotcha. Gotcha.
    So the outrage that I understand that exists in Mississippi 
and Alabama among recreational fishermen and people who have, 
you know, been doing it their whole lives and want to go ahead 
and do it follows from the 3-day rule in the Federal waters.
    What is the basis for that 3-day rule, given the widespread 
availability of the red snapper and the fact that the 
commercial fisher-people are doing so well?
    Mr. Comstock. Well, again, the Gulf Council divvies the 
fish up first between recreational and commercial. So there's 
divisions, so the activities--or the commercial guys are sort 
of set aside.
    Mr. Raskin. Well, what's the current allocation there?
    Mr. Comstock. It's 51-49, in favor of the commercial 
sector.
    Mr. Raskin. Okay.
    Mr. Comstock. So the challenge is that Gulf snapper live 
long and they also like deep water. And so, depending on the 
topography of the Gulf of Mexico, you may find yourself having 
to fish further than 9 miles offshore if you want to go after 
Gulf snapper.
    So that's why you see the focus on what is the Federal 
limit. Because you may have 365 days off your neck of the woods 
in Texas, but if that's not deep water, then you may not find a 
lot of red snapper.
    Mr. Raskin. But the 3-day rule is meant to be a means to 
arrive at the end of no more than 49 percent of----
    Mr. Comstock. They take a pie----
    Mr. Raskin. Yeah.
    Mr. Comstock. --and there's so much available. Then they 
estimate what they think is going to be caught in each one of 
the States. The remainder is then what's available for the 
Federal fishery. And then they estimate how much effort they 
think there will be, how much that will be caught for two fish, 
or basically six fish total, per angler, and then they make an 
estimate.
    Mr. Raskin. But when we look at the video footage that 
Congressman Scott offered us of, you know, the very successful, 
industrial-style fishermen----
    Mr. Comstock. That was a commercial fisherman.
    Mr. Raskin. Those are commercial fishermen.
    Mr. Comstock. Yes.
    Mr. Raskin. Essentially, we are being told that you need to 
limit the recreational population to 3 days in order to stay 
within 49 percent even though the commercial people are out 
there bringing in huge catch. But is it just because there are 
so many recreational fishermen out there?
    Mr. Comstock. It's the numbers of recreational fishermen. 
But, also, you need to keep in mind, with the commercial catch, 
they literally regulate down to the pound. You get a quota. 
You, Congressman Raskin, get 15,000 pounds of fish. That's what 
you're allowed to fish. You can fish it when you want to, but 
it is very carefully monitored. So it really is a completely 
different animal.
    Mr. Raskin. I see.
    Mr. Comstock. On the recreational side, the challenge----
    Mr. Raskin. The recreational catch fluctuates more. It's 
much more guesswork.
    Mr. Comstock. Sure, because some people catch a 4-pound 
fish, some people catch an 8-pound fish.
    Mr. Raskin. Yeah.
    Mr. Comstock. You're just having to take averages.
    Mr. Raskin. And then, in hindsight, are they able to 
determine what the actual allocation was, like, last year 
between the commercial and the recreational? I mean, was it 
really 51-49, or was it 70-30? Is there some way to know?
    Mr. Comstock. They walk back the evaluations to see how 
close they are. And, in fact, some of the adjustment this year 
reflects an estimated overage by the recreational sector last 
year, so that's deducted from their allocation this year.
    Mr. Raskin. Is the 51-49 split statutory, or is that a 
regulation?
    Mr. Comstock. That was set by the council.
    Mr. Raskin. Set by the council, okay, whose membership is 
dominated by the States. The Governors appoint most of the 
members, right?
    So would it be correct to intuit that the council is 
dominated by the commercial fisher interests as opposed to the 
recreational? No?
    Mr. Comstock. I'd defer to Mr. Miller, who's on the 
council.
    Mr. Miller. The five State managers have a seat on the 
council. There is representation for commercial sector and then 
other recreational sectors, but there's pretty good balance on 
the council.
    Mr. Raskin. Okay.
    I thank you, Mr. Chair. I yield back.
    Mr. Farenthold. Thank you very much.
    We'll now recognize Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    There was good balance on the council until you had sector 
separation. And so the council typically doesn't vote based on 
which State they're from; they're based on which industry they 
represent. So the commercial guys from Florida are going to 
vote with the commercial guys from Texas, are going to vote 
with the commercial guys from Alabama. But the recreational 
guys are together.
    The difference has been that the National Marine Fisheries 
Service guy has effectively always been the tie breaker, and I 
say, well, he always votes for the commercial guys. And to 
their credit, Sam Rauch said, no, he doesn't, he abstained one 
time.
    And I don't necessarily blame the charter boat guys for 
this, but when they got pushed down to a season where they 
couldn't even pay their bills, then they separated the sector 
so that they could get a longer season.
    And so, now, as long as the commercial guys and the four 
higher recreational guys, the charter boat guys vote together, 
the guy who just wants to take his kid fishing and not have to 
pay somebody to do it is out of luck. You're down to the 3 
days.
    That 3 days, by the way, gets blamed on the States a lot. 
But the fact of the matter is, Mr. Miller, as I understand it 
from Nick Wiley from Florida--and I know Spud from Georgia too. 
I trust you all. Susan Shipman was the marine biologist in 
Georgia beforehand. If Susan told me we needed to shut the 
fishery down, I'd say, Susan, I respect you, I trust your 
science, I gotcha.
    But my understanding is that you all all agreed on what the 
season would be, and we had one season, State and Federal; it 
would be 15 days. Is that correct?
    Mr. Miller. There has been a few numbers kicked around, but 
I think that's consistent with what has been talked about.
    Mr. Scott. So 15, 16, 17, maybe 20 at the outside. So it's 
not really fair to blame the States, when the States only did 
what they had to do so that they could--I mean, the mom-and-pop 
that's out there with a small bait store has got to have a 
season.
    So, Mr. Comstock, I appreciate you mentioning the depth. So 
why don't we just give the States total control to the--say, 
the 35. That would give you 180 feet.
    Mr. Comstock. Certainly, if that's what the Congress would 
like to do, they're more than welcome to do it.
    Mr. Scott. Well, see, the problem is the money. The 
problem's the money, not the money that Congress has, but the 
money that the people that are making the money off the current 
system have. And I would appreciate your help in looking at 
that.
    But there's no difference--and I again want to reiterate to 
my colleagues, the fish is dead. The fish is dead. You're 
fishing for grouper on the same spot you're fishing for 
snapper.
    Is that an accurate description, Mr. Ray? The fish is dead; 
you just can't bring him home?
    Mr. Ray. They're very difficult to revive when they've been 
pulled up from deep water.
    Mr. Scott. And so I'd just like to make the point that, 
while they blame it on the States, the way it is being run, the 
recreational angler would only have around a 15-day season if 
the States had not done what they did to at least give us a 
chance.
    And, by the way, they picked the 15 days. It's not like you 
look at your calendar and say, I've got 15 days, I'm going to 
go hunt or fish this year. They pick the 15 days, and if your 
calendar doesn't work in it, that's just too bad.
    So, with that, I will yield the remainder of my time. But I 
look forward to the support of the seafood harvesters and the 
creation of the additional sanctuaries where we won't allow 
commercial fishing in the Gulf.
    Mr. Farenthold. And we'll now recognize the gentleman from 
Texas.
    Mr. Weber. Thank you, Mr. Chairman. He yielded me a minute, 
so I've got 6 minutes.
    Guys, how do we get--well, let me back up. Thank you for 
bringing up the depth. The Texas Gulf Coast, Galveston, where 
I'm from, it drops off very slowly. So you've got to go out 
about, I don't know, 50 miles, 60 miles. And I think it was 
you, Mr. Ray, who said a boat invested in $60,000 to $100,000. 
A lot of the ones I've seen are even more than that. And so 
they've got really quite an investment, our rec fishing guys 
do.
    How do we get them more days? Mr. Scott makes a great 
point. We all understand that you pull up those fish twice and 
they're dead. Do we relax that regulation? Do we say, look, 
you're going to count that in your quota? Can they do that 
whenever they're out there?
    Because I've been fishing out there, and, like Austin said 
here, about every other fish you pull up is a red snapper when 
you get about 70 miles out from Galveston. So do we relax that 
so our rec fishermen get more red snapper on different days?
    How do we get them more days? Help me get the rec guys more 
days.
    Mr. Comstock, you've got about 30 seconds.
    Mr. Comstock. Well, obviously, what I can say is we'll 
commit to looking further into it and see what options might be 
available.
    To the extent the fish are coming up dead, proper fishery 
science would say that you have to put that calculation in in 
your assessments. So there is an accounting for that. And we 
can certainly take another look and see if there are other ways 
we can do this.
    Mr. Weber. Okay.
    Mr. Miller, you seem to have the most experience at this.
    Mr. Miller. Well, we haven't mentioned the word, although 
we've talked around it, but ``regional management'' is one 
concept that each of the State directors have talked about for 
at least a few years, basically give the authority over to the 
States to do their own stock assessments, which will allow them 
to assess their own biomass----
    Mr. Weber. And report to who?
    Mr. Miller. Well, we would still be operating under 
Magnuson, to some degree. It would not include the commercial 
fishery, at least as we've discussed it. It would just be for 
the private recreational anglers. And it would give them what 
they want, which is more opportunities, more days----
    Mr. Weber. More accurate data.
    Mr. Miller. And we would have more accurate data, we 
believe. We've got a capable staff and capable universities to 
help us do that. We do that for State fisheries.
    Mr. Weber. That would get our rec guys more days, in your 
estimation.
    Mr. Miller. It would.
    Mr. Weber. Okay.
    Mr. Brown?
    Mr. Brown. You know, the recreational fishery is engaged in 
a derby-style fishery. The State sets the season, and, like you 
pointed out, sir, if it doesn't line up with your vacation 
schedule, you're out of luck.
    Mr. Weber. But it doesn't work, Mr. Brown, in my district, 
because you don't get out--Texas State waters 9 miles from 
Galveston is like, I don't know, unless you're in the channel, 
it's not even 40-something-feet deep. So we've got to really 
get out there. My rec guys need more days out in Federal 
waters. How do we do that in Federal waters?
    Mr. Brown. Well, adopt accountability as your savior. Quit 
going over the limits as a recreational fishery, get to rebuild 
quicker, and decouple the allocation of time from a season. If 
you simply allow fishermen to fish tags or at their leisure, 
then if you have a 20-day season, not everyone fishes 
simultaneously. You can break it down. People can fish so it 
does fit into their weekend.
    Mr. Weber. Okay. I need to move on. Thank you. But I think 
you said a dirty word.
    Did he, Mr. Ray, when he said ``tags''?
    Mr. Ray. Yeah. You know, if you took the recreational 
allocation and made tags, I think it comes up to something like 
400,000 tags, some number like that, for an allocation. So that 
would mean that every licensed angler wouldn't even have access 
to a tag.
    Mr. Weber. A tag.
    Mr. Ray. So that argument fails on its face.
    Mr. Weber. So how do we get our rec guys more snapper? Do 
we relax the provision that if you pull one up dead it can be 
in whatever timeframe? Because the fish is dead, right?
    Mr. Ray. Yeah. You know, I'll just go back to the one cure, 
and that's a legislative cure. And it's not a new notion. The 
Atlantic States Marine Fisheries Commission was given the power 
to manage striped bass out to--I can't--it's hundreds of miles, 
I believe, but I don't remember the number. But that has been a 
tremendous success for both commercial and recreational 
fisheries in the Atlantic on a stock of fish that was in 
terrible shape when it was enacted.
    Mr. Weber. What year was that?
    Mr. Ray. Does somebody here----
    Mr. Comstock. 1993.
    Mr. Weber. 1993.
    Well, I'm running out of time, and so, very quickly, I 
filed a bill--some of you alluded to the bills we had filed--to 
get our rec fishermen 62 days--2 months, one congressional 
session, July and August, consecutive months. Because in 
Galveston, Texas, off the Texas Gulf Coast, where most of ours 
fish, they need that.
    Now, you know, don't tell anybody, this is secret, but I'm 
willing to negotiate that down a little bit, just between us.
    Mr. Scott. You're going to lose votes.
    Mr. Weber. And Austin says I'm going to lose votes. He 
wants to keep it at 62 days, and I agree. And I agree.
    So we could increase for one congressional season just 
until we get everybody to the table to work on the kind of 
arrangement you're talking about, Mr. Ray, in implementing what 
Mr. Miller has laid out as Mississippi's way to account for the 
data. If we could get everybody to the table in one 
congressional season, we wouldn't just totally annihilate the 
fishery if we gave rec fishing guys 30 or 40 days.
    So that's my goal, is to give them more days so that they 
can actually partake of this thing. Let them have a lot of 
money invested in it. Somebody pointed out the amount of money 
that it puts in the economy.
    So, Mr. Chairman, I'm going to thank you for your 
indulgence, and I'm going to yield back.
    Mr. Farenthold. Thank you very much.
    And I think we've shown that there is still a lot of work 
to be done on this. I look forward to continuing to work on it. 
I suspect our other committees in Congress will be working on 
it as well.
    And I'd like to thank our witnesses for taking time to 
appear before us today.
    If there's no other business before the subcommittee, 
without objection, the subcommittee stands adjourned.
    [Whereupon, at 4:22 p.m., the subcommittee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
